NO. 20-

IN THE

SUPREME COURT
OF THE UNITED STATES
CLARENCE HOFFERT,
Petitioner,
v.

UNITED STATES OF AMERICA,
Respondents
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Third Circuit

CERTIFICATE OF SERVICE
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
AND
PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

HEIDI R. FREESE, ESQ.
Federal Public Defender
Middle District of Pennsylvania

QUIN M. SORENSON, ESQ.*
Assistant Federal Public defender
Middle District of Pennsylvania
100 Chestnut Street, Suite 306
Harrisburg, Pennsylvania 17101
(717) 782-2237
quin_sorenson@fd.org
Counsel for Petitioner

July 9, 2020

* Counsel of Record

I, Quin M. Sorenson, Esquire, a member of the Bar of this Court, hereby
certify that on this 9th day of July, 2020, copies of the Motion for Leave to Proceed
in Forma Pauperis and the Petition for a Writ of Certiorari in the above-captioned
case were hand delivered and/or mailed, first-class postage prepaid, to the
following:
NOEL FRANCISCO, ESQUIRE
Solicitor General
United States Department of Justice
950 Pennsylvania Avenue
Washington, DC 20530

PATRICIA S. DODSZUWEIT, CLERK
United States Court of Appeals
for the Third Circuit
601 Market Street, Room 21400
Philadelphia, PA 19106

WEI XIANG, ESQUIRE
United States Attorney’s Office
138 Delaware Avenue
Buffalo, NY 14202
Wei.xiang@usdoj.gov
I further certify that I am a member of the Bar of this Court and that all
parties required to be served have been served.
Respectfully submitted,
/s/ Quin M. Sorenson
QUIN M. SORENSON
Asst. Federal Public Defender
100 Chestnut Street, Suite 306
Harrisburg, PA 17101
(717) 782-2237
Counsel for Petitioner,
Clarence Hoffert
Date: July 9, 2020

